<html>
<title> - NOMINATION OF DR. JAMES R. MAHONEY TO BE ASSISTANT SECRETARY FOR OCEANS AND ATMOSPHERE AND DEPUTY ADMINISTRATOR FOR THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-966]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-966
 
                NOMINATION OF DR. JAMES R. MAHONEY TO BE
                   ASSISTANT SECRETARY FOR OCEANS AND
                  ATMOSPHERE AND DEPUTY ADMINISTRATOR
                      FOR THE NATIONAL OCEANIC AND
                       ATMOSPHERIC ADMINISTRATION
=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-604              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
      Jeanne Bumpus, Republican Staff Director and General Counsel















                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on January 24, 2002.................................     1
Statement of Senator Kerry.......................................     1
Statement of Senator Wyden.......................................     2

                               Witnesses

Gregg, Hon. Judd, U.S. Senator from New Hampshire................     3
Mahoney, Dr. James R., nominee to be Assistant Secretary of 
  Commerce for Oceans and Atmosphere and Deputy Administrator for 
  the National Oceanic and Atmospheric Administration............     5
    Prepared statement...........................................     8
    Biographical information.....................................     9

                                Appendix

McCain, Hon. John, prepared statement............................    29
Response to written questions submitted to Hon. John McCain by:
    Dr. James R. Mahoney.........................................    29













                 NOMINATION OF DR. JAMES R. MAHONEY TO
                 BE ASSISTANT SECRETARY FOR OCEANS AND
                  ATMOSPHERE AND DEPUTY ADMINISTRATOR
                      FOR THE NATIONAL OCEANIC AND
                       ATMOSPHERIC ADMINISTRATION

                              ----------                              


                       THURSDAY, JANUARY 24, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:05 a.m. in room 

SR-253, Russell Senate Office Building, Hon. John Kerry, 
presiding.

             OPENING STATEMENT OF HON. JOHN KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Good morning. It's my pleasure to convene 
this hearing today to consider the nomination of Dr. James 
Mahoney to be the Assistant Secretary for Oceans and Atmosphere 
and Deputy Administrator for the National Oceanic and 
Atmospheric Administration.
    He's joined today, I gather, by his wife, Taya, back there 
with his twin daughters, Caitlin and Courtney, and daughter, 
Deborah, and sons, James and Robert, who I've just been 
informed are good constituents of mine in Massachusetts. So 
we're even more delighted to welcome you here.
    [Laughter.]
    Senator Kerry. I was telling your father a moment ago that, 
given his roots in Massachusetts 25 years long, we probably 
don't need a hearing, but we're going to do it anyway.
    [Laughter.]
    Senator Kerry. I really am pleased to have you here.
    I'm also very happy to welcome Deputy Secretary of 
Commerce, Sam Bodman, also from Massachusetts, and NOAA 
Administrator, Admiral Lautenbacher. We're delighted to have 
you here, and thank you for taking time to be here in support 
of the nominee, which we note.
    Let me just say very quickly that we want to try to 
expedite the hearing and that Senator Gregg has a pressing 
commitment upstairs, so we'll try to move along fast, but I 
don't want to shortchange the importance of this job.
    NOAA really came into existence due to the great efforts of 
our Chairman of this Committee, Senator Hollings, in 1970, and 
its purpose was to protect life and property from natural 
hazards and also to help us understand the total environment 
and lead to intelligent use of our natural resources.
    There's an annual appropriation of over $3 billion, which 
represents 60 percent of the budget of the Commerce 
Department--12,000 employees. Many people, former secretaries, 
have come before us--and I think particularly of Ron Brown and 
Bill Daley and others in the past--they're always shocked to 
learn that the Commerce Department has a Navy as well as this 
extraordinary responsibility. More than 30 percent of the gross 
domestic product of our country is generated in the coastal 
zone, and 40 percent of all the new commercial and residential 
development is along the coast.
    Predictions are that in about 20 years, 75 percent of all 
Americans are going to live in coastal areas, so we have an 
enormous burden on us, and the marine-related protection issues 
are huge. Even today I think it is as we sit here.
    A court case is regrettably going to be argued in the First 
District regarding fisheries. Senator Snowe and I would 
particularly wish that the councils would be able to manage 
these things. That was the purpose of our regime, but it isn't 
happening properly. And last year we landed roughly--this is an 
extraordinary statistic--we landed 9 billion pounds of fish 
with a value of about $3.5 billion. And I'm pleased to say that 
New Bedford has returned to its status as the number-one 
fishing port, in terms of dockside revenues, with over $146 
million in landings.
    But we also know that we have enormous risks to our oceans. 
The ecosystem is stressed. Many of the world's greatest 
fisheries are over-fished. We have troubles in almost every one 
of our own fisheries surrounding the United States, from the 
salmon in the Northwest to the tuna to the Gulf of Mexico to 
the migratory species off the Atlantic coast and obviously, 
Georges Bank. Much of it is closed to fishing today, for proper 
purposes.
    But these are huge missions, Dr. Mahoney. And then on the 
outside, you have all of the weather prediction in which, I 
must say, NOAA does an extraordinary job. The predictions of 
hurricane Michelle were really rather remarkable. They were so 
accurate, even as it twisted and turned, giving people notice, 
which was important to saving life and property.
    So we value these services enormously, and we welcome your 
willingness to undertake this. And you come with, I must say, a 
terrific background and a terrific set of preparations for it. 
So we welcome the nomination.
    Let me ask if my colleague has any quick opening remarks.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. I do, Mr. Chairman, and I thank you. I think 
you've summed it up very well, Mr. Chairman.
    And obviously in the Pacific Northwest, where we now have 
the highest unemployment rate in the country, we care 
tremendously about the issues that Senator Kerry has talked 
about. We have got to get the right number of fishers out there 
at the right time, catching the right number of fish to make 
this industry sustainable. Clearly, for states like 
Massachusetts and Oregon, this is a major jobs issue. At the 
same time, we want to make sure that we don't shortchange 
science in the conservation issues that are so critical.
    As I told you yesterday in our meeting, Dr. Mahoney, I'm 
going to support your nomination here this morning. You were 
very forthright in our dealings yesterday. The people of the 
Northwest feel that they have been listened to on these issues. 
We've had scores of public meetings. This is a time for action. 
We want to see you work with Bill Hogarth, who has been very 
forthcoming in our region, in terms of working with us, and 
getting results.
    There are two specific issues that we want you to work on. 
The first is a question of the number of vessels that are out 
there. We've got to have a buy-back program that gets the right 
number of people at the right time, in effect, doing the things 
that are based on sound science.
    Second, we want you to follow up on a promise that NMFS 
made to me personally and the people of our region to do 
something about this bycatch issue. We have seen action at the 
agency drag on and on. The resource is being wasted.
    There are pictures of huge numbers of fish coming as a 
result of inadvertent catch to the shore, and they're being 
thrown away. They're not going to food banks. It's a waste of a 
resource. It is a real disgrace, and the agency has promised 
action on it, and it has not been forthcoming.
    Those are the two issues. And we appreciate the public 
meeting. We're always anxious to have more. Now we want to get 
some results.
    Mr. Chairman, I thank you.
    Senator Kerry. Thank you very much, Senator Wyden.
    I'm particularly pleased Senator Gregg is here, actually, 
to hear both of these comments, because he has a critical role 
in the Congress as one of our chief appropriators. One of the 
most difficult aspects of resolving the protection of 
fisheries--and obviously, New Hampshire is a participant in 
this--is finding a sensible way to reduce the fishing effort. 
And we've tried to augment the buy-back program so we literally 
get people out of fishing. Other countries are doing that to 
smart avail, and I think it's something we really need to think 
about expanding the program. There's just too much money 
chasing too few fish, and we need to have a balance in it, and 
that seems like an equitable way to reduce people who've been 
at it for generations but who are prepared, perhaps, to sell 
their equity in it.
    Senator Gregg, thank you for taking time to be here, and we 
look forward to your introduction.

                 STATEMENT OF HON. JUDD GREGG, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Gregg. Thank you, Mr. Chairman and Senator Wyden. 
It's a pleasure to be here today and join the Committee in 
welcoming Dr. Jim Mahoney, who is being put forward for the 
NOAA position.
    As the Chairman has reflected, NOAA is a critical agency.
    I consider it to be one of the true jewels of the federal 
government in that it is a science agency that does 
extraordinary work and is on the cutting edge of science that 
is critical to us as a nation and our survival, not only 
economically, but internationally and in a lot of strategic 
ways. And, of course, it's critical to the protection of the 
American people because it does warn us when tornados are 
coming and where hurricanes are going to hit. And it does a 
great job.
    I have had the good fortune to be serving on the 
Subcommittee on Appropriations, and be Chairman of that 
Committee and now Ranking Member on it, which has jurisdiction 
over NOAA. The Senate has always been an aggressive supporter 
of NOAA, as the Chairman of this Committee has been. Not only 
the Chairman of the subcommittee, but the Chairman of the Full 
Committee have been key players in making that sure that NOAA 
receives the funding support it needs. It's something that we 
take great pride in in our Subcommittee on Appropriations.
    And the successes of NOAA will continue if it continues to 
attract people like Dr. Mahoney. I've gotten to know Dr. 
Mahoney on a personal level. He lived across the street, 
actually, in our home down here. And it's wonderful to see Taya 
and Caitlin and Courtney here, who are great enthusiasts and 
who we enjoyed as neighbors. Unfortunately, they moved away 
just a little while ago, but they brought a lot of life and 
excitement to our street. I can tell you the twins are special 
kids, and the parents are, too.
    And as a result of getting to know the Mahoneys personally, 
I can say, without any sort of qualification, that he will be 
an extraordinary asset to the government. The fact that he's 
decided to rejoin the government, I think, is a great plus to 
us as a government. He has a tremendous background.
    The fact that a lot of his knowledge and base and 
experience comes from Massachusetts is only an extra plus.
    Having an MIT degree in meteorology and being past 
President of the American Society of Meteorology and then 
teaching at Harvard for a number of years--I think almost 20 
years, he also has an expertise in the private sector. He 
appreciates the needs of the private sector as they integrate 
with the scientific community. And that's very important in 
this agency, because there is so much overlap.
    From my viewpoint, as I say, we are fortunate to have 
people like this who are willing to go back into public 
service, people like Dr. Mahoney. That's our good fortune.
    So I come here today to endorse him with absolute 
enthusiasm. I know he'll be a tremendous addition to NOAA, and 
I look forward to working with him in the appropriating process 
to make sure that NOAA receives the support it needs in order 
to continue to do its mission which is so critical for our 
country.
    I thank for the Chairman for your courtesy in allowing me 
to proceed.
    Senator Kerry. Thank you very much, Senator Gregg. I'm 
confident that all the interested parties in this area will be 
even more delighted to know that since you're on the 
Appropriations Committee, this special personal relationship 
will do well for the agency.
    [Laughter.]
    Senator Gregg. Absolutely.
    Senator Kerry. I know you need to get upstairs, so we 
really thank you for taking the time to be here. Thanks a lot.
    Senator Gregg. You bet.
    Senator Kerry. Dr. Mahoney, we look forward to your opening 
comments and to spending some time with you.
    Let me just say to everybody we do have a hearing coming on 
at the conclusion of this nomination hearing on the important 
subject of CAFE standards, so we're going to try to expedite 
this as rapidly as we can, and I'm sure you won't object to 
that.

       STATEMENT OF DR. JAMES R. MAHONEY, NOMINEE TO BE 
 ASSISTANT SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE AND 
                 DEPUTY ADMINISTRATOR FOR THE 
        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Mahoney. Not a bit, Mr. Chairman. Thank you, and thank 
Senator Wyden also for your gracious comments at the outset and 
the--well, I guess he's now out of the room. I obviously 
appreciate Senator Gregg's strong support, as well.
    I think I want to simply return the note that we have been 
tremendously impressed with Senator Gregg and his wife, Kathy, 
not only in terms of his official capacity, but just as great 
people whom we have gotten to know as good friends.
    And I think it makes the best kind of circumstance that the 
friendship doesn't mean special privilege; it means special 
challenge to try to do your job even better because people 
expect a lot of you in that case. And that's the sense in which 
I would draw on that friendship.
    I will be quick and will try to parse my statement so that 
we can save a little bit of time for other comments and 
questions, as well.
    I would note, with the long Massachusetts and New England 
tie which has been noted here, one, I'm very pleased and proud 
about, I have also spent a substantial part of my life living 
on the other coast--not in Oregon, Senator Wyden, but in 
California during periods of work at different times. So I 
think between both an East Coast and a West Coast experience 
for a long time with a great exposure to the coastal problems 
as well as a lot of international experience, hopefully what I 
would bring to NOAA will be a sensitivity to the very kind of 
things that both of you have just raised in your opening 
comments, as well.
    I'll now highlight some of the matters in my opening 
statement which expresses some things I feel very strongly 
about. I first want to thank you for hearing me here today and 
for the courtesy of having this hearing at the time immediately 
after you've come back from recess. And I want to acknowledge 
that I am prepared--if you all decide, and the full Senate 
does, to confirm my appointment--to begin immediately and to 
work with Admiral Lautenbacher here and with Deputy Secretary 
Bodman and Secretary Evans, promptly getting going on these 
issues. And I want to acknowledge their strong support and 
encouragement during the long process that a nominee goes 
through before he or she comes to this point.
    A quick biographical background. I was born in Syracuse, 
New York, so I'm familiar with snow in the upstate area, too, 
and I was a hometown college student. I had a great 
undergraduate education at LeMoyne College in Syracuse. I've 
just finished serving the maximum of three terms on its board 
of trustees, as a matter of fact. And then I went down to MIT 
for graduate school in meteorology following my undergraduate 
experience.
    In my whole career after college, where I was a physics 
major, and beginning with the MIT meteorology experience, I've 
now had 40-years-plus working always in earth and environmental 
sciences on public health and public benefit issues. So I'd 
like to believe that I bring substantial experience on a number 
of NOAA issues as well as a strong sensitivity to the public 
mission of all of government, but in particular the service 
agencies, such as NOAA's. And I want to note that in my 
background.
    Based on my experience on the Harvard faculty, I was co-
founder of one of the nation's early new-generation 
environmental firms. In 1968, three of us organized a firm that 
we then called Environmental Research and Technology, 
Incorporated, and it was based out of the Harvard MIT complex.
    I might note that the great counselor--and for many, many 
years, the strongest director of that enterprise--was Deputy 
Secretary Bodman, here in the room, as well. So we had the 
benefit of his great technical and business leadership while we 
built that business.
    It's worth noting, with the NOAA tie to my meteorological 
background, we went after some of the air pollution and related 
atmospheric problems. And a quarter century ago, by the mid-
1970s, our firm, ERT, was the largest employer of 
meteorologists outside of the federal government itself, in 
NOAA, in that period.
    All of that experience with our firm represented a great 
grounding for me in dealing with issues of management of 
technical enterprises. The technical mind needs encouragement, 
challenge, direction, and discipline in many cases, but it 
needs most of all a sense of mission and vision in supporting 
good work, and I felt I learned that with our own business. I 
spent some years as a senior executive at the Bechtel Group 
based in San Francisco and also with International Technology 
Corporation based in Los Angeles initially and then back here 
in the Washington area. And that theme of good, button-down 
management, but management that respects the importance of the 
technical and professional inputs, is something that I'd like 
to believe that I've been very much acculturated to.
    I came into public service in the late 1980s as the 
Director of the National Acid Precipitation Assessment Program, 
then called NAPAP. With the great focus on acid rain emerging 
out of the 1970s and with, very much, the emphasis of the 
Chairman, I'm well aware, you all in Congress in 1979, passed 
the Energy Security Act that set out a 10-year program in 
something that I've always thought of as an attempt at good 
government to say, ``Let's get the answers and understand 
everything, from the technology to the sources of acid rain and 
the effects and what to do about it,'' understanding that this 
problem is wrapped together with a fundamental energy security 
and economic security issues.
    During the final years of that program, while I was 
director, we dealt with organizing the work of 2,000 people who 
worked on that during the decade--over a thousand in the last 
years. We published a major encyclopedic compendium of all of 
the information on acid rain, which I think has stood the test 
of time since that era. Science goes on, so there's much more 
that we've learned since then, but I think it was very well 
regarded. And, of course, we played a major role in the 
development of the Clean Air Act amendments of 1990.
    I cite that experience a little bit more specifically here 
because many of the lessons learned with the acid rain program 
are quite directly relevant to the global climate change issues 
today. That is, we recognize that there is a great body of 
science, and we need to look at the science and related 
technology options carefully. We have to understand that there 
will always be uncertainty in that science. And this is not 
meant to be a surrogate for a political statement about 
uncertainty, it's just a fact which needs to be looked at in 
its own right. And then there is, of course, the great concern 
about energy and economic issues.
    The lesson that I learned out of the acid-rain experience, 
and it colors my own thinking about global climate a great 
deal, is that it's very important to have a cogent plan which 
recognizes the facts and uncertainties of science and 
technology, which clearly states the energy and economic 
security issues and recognizes some things are ultimately 
political and policy decisions, but they must be informed by 
our best science, and we can help that process by carefully 
documenting what we're questioning and how we go about it.
    So I'd offer that as a suggestion about what I would, and 
just out of personal experience, to try to help bring my 
contribution to the public sector.
    Wrapping up quickly, I've had the benefit of substantial 
experience outside of the United States. I have had some work 
experience in slightly over 50 nations around the world. And 
this goes from everything from negotiating and then overseeing, 
as a board member, technical joint-venture companies in many 
places in the world as well as roles as advisor to a number of 
international agencies and a number of governments, especially 
in developing countries.
    And a great formative experience for me, again, has been 
dealing with issues of first-generation environmental 
management in many developing circumstances in the world, 
including a 15-year relationship in Saudi Arabia where I was 
advisor to government. And these experiences often dealt with 
the resource issues, including fishery and agriculture and 
sustainability issues as well as the somewhat core issues in 
the atmospheric sciences and pollution that I dealt with more 
directly.
    I have had the honor of serving on several committees of 
the National Academy of Sciences since back in the 1970s. I 
recently completed a term as co-chairman of the Academy's Board 
on Atmospheric Sciences and Climate, so I've had the benefit of 
the rigor of the attempts at objectivity and good insight that 
the academy provides in its work over time.
    Coming, finally, to my viewed position at NOAA, I'm very 
committed to support Admiral Lautenbacher and appreciate, of 
course, his presence here today, and also to support Deputy 
Secretary Bodman, who has been a great overseer of NOAA during 
his year on the job already, and, of course, Secretary Evans, 
as well.
    In all of these matters that face NOAA, I have a very high 
regard for the excellent staff, both professional and 
scientific, and administrative staff of NOAA, and I feel that 
what I should best do is to work with Admiral Lautenbacher, as 
I know he is already doing, to build on strength and attempt to 
enhance the careers of those working at NOAA and to enhance the 
delivery of the NOAA skills and service to the Committee, to 
the Congress altogether, and to the public.
    So I pledge my strong support to you in this Committee, 
obviously to the whole Senate and the House, and clearly to the 
Executive Branch in filling those missions.
    I close simply by thanking many here sitting behind me, as 
I note at the end of my statement. My wife, Taya, who's here, I 
wrote, and I really mean, has provided me with continuing love 
and support for my work over a great, long time. I have the 
great good fortune of six adult children, all of whom are 
married and off on their own careers. And we have 11 
grandchildren, almost all Massachusetts-based. And also the 
light of our lives these days, and bringing us great joy, are 
our twin daughters, Caitlin and Courtney, who are just coming 
up to their 5th birthday, who are here behind me, too. So they 
keep me young in my work.
    Thank you, Mr. Chairman and all, for hearing me out on 
this.
    [The prepared statement and biographical information of Dr. 
Mahoney follows:]

               Prepared Statement of Dr. James R. Mahoney

    Mr. Chairman and Members of the Committee, I am pleased to come 
before you today regarding my nomination for Assistant Secretary of 
Commerce for Oceans and Atmosphere. I am honored that the President has 
chosen me for this position, and I am very grateful for the continuous 
encouragement and support of Secretary Evans, Deputy Secretary Bodman 
and Admiral Lautenbacher, who will be my supervisors in this position. 
I am particularly grateful for the opportunity to appear before you at 
this early time immediately after your return from recess. If confirmed 
by the Senate, I will take up my position at the earliest possible 
date.
    I was born and raised in Syracuse, New York, and I received an 
outstanding undergraduate education, majoring in physics, at LeMoyne 
College in my home town. My career has involved over 40 years of 
continuous focus on the environmental and earth sciences, with a strong 
emphasis in the atmospheric, climate, hydrological and oceanographic 
areas. I have benefited from diverse work responsibilities in academic, 
corporate, government and international settings. I look forward to 
applying this experience in helping NOAA and the Commerce Department to 
address their critical national missions.
    I received a Ph.D. degree in meteorology from MIT, and then 
immediately joined the Faculty of Public Health at Harvard University, 
in its Department of Environmental Health Sciences. This early career 
focus on public health and the environment set me on a course of 
responsible environmental management that has influenced all of my 
professional work.
    Drawing upon my Harvard experience, I was co-founder of an 
environmental management company, then known as Environmental Research 
& Technology, Inc. (ERT) which grew to become the nation's largest 
environmental firm by the end of the 1970s, operating throughout the 
United States and several other nations. By 1975, ERT had became the 
largest employer of meteorologists and related technical specialists in 
the United States, except for the federal government itself. My 
experience with ERT provided great lessons on the management of a large 
technical organization. This experience was later enhanced during my 
service as a senior executive at the Bechtel Group in San Francisco and 
International Technology Corporation in Los Angeles and Washington.
    I came into public service as Director of the National Acid 
Precipitation Assessment Program (NAPAP), working in the Executive 
Office of the President from 1988 through early 1991. NAPAP was a 
unique 10-year program created by the Energy Security Act of 1979, and 
charged with recommending sound approaches to controlling acid rain 
effects, while providing for continued energy and economic security for 
the nation. My service as NAPAP Director included the completion of the 
10-year program involving the work of more than 2,000 technical and 
economic specialists; the publication of a major, internationally 
reviewed acid rain compendium; and extensive issue analyses supporting 
the development of the Clean Air Act Amendments of 1990. My NAPAP 
experience is particularly relevant to today's global climate change 
issues: complex scientific and technological questions, intertwined 
with substantial energy and economic security issues, are best 
addressed in a comprehensive fashion, preferably with a well-defined 
assessment plan that incorporates all of the principal issues under 
consideration.
    In addition to my experience in the United States, I have worked in 
more than fifty other nations in several different roles: negotiating 
and overseeing international joint venture technical companies, 
representing the U.S. Government in specialist exchanges, advising 
government agencies on sustainable industry, fishery and agricultural 
practices (particularly in developing nations), and advising several 
United Nations and other international agencies.
    I am a Fellow and former President of the 12,000-member American 
Meteorological Society, which serves the atmospheric, oceanographic and 
hydrological fields. I am gratified that during my term as President 
(beginning in 1990) the AMS undertook to expand its service to American 
and international society. As a result of a strategic review conducted 
during my term as President, AMS committed to a long-term program of 
support for science education at all levels, encouragement of technical 
careers for minority students, and the application of sound science to 
complex public issues including disaster preparedness, environmental 
protection and global climate change, among others.
    I have been honored to serve on several committees of the National 
Academy of Sciences dealing with weather and climate, environmental 
protection and science education, beginning in the early 1970s. In 
1999, I completed a term as Co-Chairman of the Academy's Board on 
Atmospheric Science and Climate.
    I am committed to supporting Admiral Lautenbacher in assisting NOAA 
with its highly important missions aimed at understanding, protecting 
and enhancing our ocean, coastal, fishery, atmospheric and climate 
resources. NOAA has the benefit of a large number of highly skilled 
scientific, technical and administrative personnel, and I shall do all 
I can to help ``build on strength'' to enhance the careers of all NOAA 
personnel, and to further improve NOAA's service to the nation and the 
world.
    Should I have the privilege of your endorsement and confirmation by 
the Senate, I pledge my continuous best efforts to serve the President, 
the Secretary of Commerce and the entire NOAA team. I also pledge my 
full responsiveness to members and staff of this Committee, as well as 
to the entire Senate and House of Representatives.
    I want to acknowledge and thank my wife Taya Mahoney who provides 
continuing love and support for my work; my six adult children, their 
spouses and our 11 grandchildren who give meaning to our family life; 
and, not the least, our 5-year-old twin daughters who bring us joy 
every day.
    Thank you again for the opportunity to appear before you today.
                                 ______
                                 

                      A. BIOGRAPHICAL INFORMATION

    1. Name: James Richard Mahoney, Nickname: Jim.
    2. Position to which nominated: Assistant Secretary for Oceans and 
Atmosphere and Deputy Administrator of NOAA.
    3. Date of nomination: December 4, 2001.
    3. Address: Residence: (Information not released to the public). 
Office: Same address as above (I currently work as an environmental 
management consultant from an office in a wing of my home.)
    5. Date and place of birth: September 19, 1938, in Syracuse, New 
York.
    6. Marital status: Married to Taya Haugland Mahoney, formerly Taya 
Theresa Haugland, since May 26, 1990.
    7. Names and ages of children: Deborah Mahoney Briggs, 40; James 
Arthur Mahoney, 39; Robert Patrick Mahoney, 37; Peter Scott Mahoney, 
36; David Joseph Mahoney, 35; Paul Richard Mahoney, 33; Caitlin Tess 
Mahoney, 4\3/4\; Courtney Mae Mahoney, 4\3/4\ (identical twin).
    8. Education: Secondary School: Christian Brothers Academy, 
Syracuse, NY, Attended from 9/51 to 6/55, Awarded College Entrance 
degree in 6/55. College: LeMoyne College, Syracuse, NY, Attended from 
9/55 to 6/59, Awarded B.S. Degree in Physics in 6/59; Graduate School: 
Massachusetts Institute of Technology, Cambridge, MA. Attended 9/59 to 
12/65, with breaks for technical work in NY and CA in 1960, 1961 and 
1962, Awarded Ph.D. Degree in Meteorology in 6/66.
    9. Employment record: Graduate student and research assistant, MIT, 
Cambridge, MA, 9/59 to 12/65, except for the breaks noted in next two 
items below. Research Staff Associate, General Electric Company, 
Defense Systems Department, Syracuse, NY, 6/60 to 9/60 and 6/61 to 9/
61; Research Staff Associate, Space Technology Laboratories, Inc., 
Redondo Beach, CA, 6/62 to 9/62; Research Assistant, Harvard 
University, School of Public Health, Department of Environmental Health 
Sciences, Boston, MA, 1/66 to 6/66; Assistant Professor of Applied 
Meteorology, Harvard University, School of Public Health, Department of 
Environmental Health Sciences, Boston, MA, 7/66 to 6/71; Associate 
Professor of Applied Meteorology, Harvard University, School of Public 
Health, Department of Environmental Health Sciences, Boston, MA, 7/71 
to 6/74; Co-founder, Senior Vice President and member of the Board of 
Directors, Environmental Research & Technology, Inc., Boston, Lexington 
and Concord, MA, 12/68 to 9/83. Part time with ERT and full time with 
Harvard University until 7/74. Full time with ERT thereafter; Expert 
Advisor on Environment and Energy, Organization for Economic 
Cooperation and Development, Paris, France, 5/70 to 9/70 (on leave from 
Harvard University and ERT); Environmental Management Consultant 
(independent practice), Boston, MA, 10/83 to 12/83; Manager, 
Environmental Industries Center, the Bechtel Group, Inc., San 
Francisco, 1/84 to 1/87; Environmental Management Consultant 
(independent practice), Sausalito, CA, 2/87 to 12/87; Director, 
National Acid Precipitation Assessment Program (NAPAP), Executive 
Office of the President, Washington, DC, 11/88 to 12/90. 
(Administratively--on NOAA payroll, and on assignment to EOP.); Senior 
Vice President, International Technology Corporation, Inc. (The IT 
Group, Inc. after 1998), Torrance, CA, 1/91 to 9/97 and Washington, DC, 
10/97 to 7/99; Environmental management consultant (independent 
practice), McLean, VA, 8/99 to 6/01 and Ashburn, VA, 7/01 to present;
    10. Government experience: Principal Investigator of federally-
sponsored environmental research projects while on the faculty at 
Harvard University, from 1968 to 1974. EPA was principal sponsoring 
agency; Consultant on international state of practice on air pollution 
computer modeling, assigned by EPA and NOAA to represent United States 
practice at OECD in Paris, from 1969 to 1974; Member of the U.S.-USSR 
environmental specialist exchanges arranged during the 1972 Nixon-
Brezhnev summit, at various U.S. and USSR locations, from 1973 to 1978; 
Consultant to EPA, as a member of a bilateral U.S.-Japan environmental 
exchange, Tokyo, 1977; National Academy of Sciences/National Research 
Council (NAS/NRC) committee appointments as follows: Motor Vehicle 
Emission Controls Committee member, 1973 to 1975; Environmental 
Manpower and Education Committee member, 1978 to 1979; Board on 
Atmospheric Sciences and Climate co-chairman, 1997 to 1999; Air Quality 
Management in the United States Committee member, 2001 to present; 
Member of the Health Effects Research Advisory Committee appointed by 
the Secretary of Energy, 1984 to 1989; Consultant to the EPA Science 
Advisory Board, 1992 to 1996; Member of the Ad-Hoc Committee on 
Environmental Security appointed by the Secretary of Defense, 1995 to 
1998; Scientific peer reviewer for research grant proposals submitted 
to NOAA and EPA by prospective grantees at various times in the 1970s 
and 1980s; Advisor to the Office of the Governor of Massachusetts on 
the evaluation of state-level air pollution control strategies, 1968 to 
1970.
    11. Business relationships: Trustee of LeMoyne College in Syracuse, 
NY (my undergraduate college), 1992 to 2001; Co-founder, Senior Vice 
President and Director of Environmental Research & Technology, Inc. 
(ERT) in Boston, Lexington and Concord, MA from 1968 to 1983; President 
of ERT International, Inc. (international business subsidiary of ERT), 
1975 to 1983; Director of international joint venture companies created 
by ERT and in-country partner companies as follows: ICATEC, SA in 
Mexico City, 1978 to 1983; AMARTECH, LTD in Jeddah, Saudi Arabia, 1975 
to 1979; KISR-IT LTD in Kuwait, 1977 to 1979; Senior Vice President of 
International Technology Corporation (The IT Group, Inc. after 1998) in 
Torrance, CA and Washington, DC from 1991 to 1999; President of the 
Consulting and Ventures Group within the IT Group, Inc., Washington, 
DC, 1999; Director of domestic and international subsidiary and joint 
venture companies created by the IT Group, Inc., as follows: Gradient 
Corporation, subsidiary in Cambridge, MA, 1995 to 1999; LandBank, LLC, 
subsidiary in Denver, CO, 1995 to 1999; JSC Corporation, subsidiary in 
Roslyn, VA, 1998 to 1999; Chi Mei-IT Corporation, joint venture company 
in Taipei, Taiwan, 1997 to 1999; KOHAP-IT Corporation, joint venture 
company in Seoul, Korea, 1998 to 1999; Environmental and business 
consultant to the environmental insurance practice of Swidler Berlin 
Shereff Friedman LLP, a law firm in Washington, DC, 2000 to present; 
Environmental advisor to the Southern Appalachian Mountains Initiative, 
and ad hoc federal, state, NGO and corporate-sponsored environmental 
analysis and planning organization in Asheville, NC, 2001 to present; 
Environmental management consultant to a broad range of clients between 
1968 and the present. My practice has involved many agencies of the 
federal government, several international organizations, national and 
regional government units in many parts of the world, as well as 
corporations and industry associations throughout the United States. A 
representative list of the more than 100 client organizations for which 
I have provided professional services follows: U.S. Federal agencies 
including NOAA, U.S. EPA, U.S. Department of Energy, U.S. Department of 
Defense, U.S. Department of Transportation, U.S. Department of State 
Agency for International Development, International organizations 
including the World Meteorological Organization, the World Health 
Organization, the United Nations Development Program, the Organization 
for Economic Cooperation and Development, and the North Atlantic Treaty 
Organization, national government environmental and planning ministries 
including the governments of Greece, Nigeria, Saudi Arabia, Kuwait, 
Finland, England, Italy, Mexico, Brazil, Japan, Hong Kong, Belgium, 
Denmark, Portugal, and the former Soviet Union, Business and commercial 
organizations including the Business Roundtable, the Edison Electric 
Institute, the American Forest Products Association, the Chemical 
Manufacturers Association, the Aluminum Association, the American Iron 
and Steel Institute, the National Association of Manufacturers, the 
Electric Power research Institute, and the American Petroleum 
Institute, Individual corporate clients of various sizes including 
(among others) the General Electric Company, the General Motors 
Corporation, USX Corporation, Westvaco Corporation, International Paper 
Corporation, DuPont Corporation, the Dow Corporation, American Electric 
Power Corporation, Tampa Electric Company, Pacific Gas & Electric 
Company, Procter & Gamble Company, the Shell Corporation, the Texaco 
Corporation, Boston Edison Company, Burlington Northern Railroad, Union 
Pacific Corporation, Yellow Freight Corporation, Fluor Corporation, 
Consolidated Electric Company of New York, Union Camp Corporation, and 
GPU Nuclear Corporation.
    12. Memberships: Citizens for the Boston Schools (civic betterment 
organization), Boston, member 1964 to 1970, President, 1968 to 1970; 
American Meteorological Society: member since 1966; member and chairman 
of the AMS Committee on Air Pollution Meteorology, 1971 to 1975; 
editor-in-chief of the Journal of Applied Meteorology, 1973 to 1975; 
member of the AMS governing council and executive committee, 1976 to 
1982; AMS President, 1990 to 1991; member of the AMS Planning 
Committee, 1994 to 1999; member of the AMS Investment Committee, 1995 
to present; Member, Belmont Country Club, Ashburn, VA, 2001 to present; 
Air and Waste Management Association, member, 1985 to 1992.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None, except for 2 days assisting in the November 2001 election 
campaign of my brother, Bernard J. Mahoney, who was the unsuccessful 
candidate for Mayor of Syracuse, NY.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: Valedictorian of my high school graduating 
class; BS degree awarded Magna cum Laude by LeMoyne College, and my 
rank was 2 out of 400 in the graduating class; New York State Regents 
Scholarship for college support; Danforth Foundation Graduate 
Fellowship, supporting my attendance at MIT; National Science 
Foundation Graduate Fellowship, supporting my attendance at MIT; 
Fulbright Post-Doctoral Fellowship to study at the University of 
Sydney, Australia. (Resigned after award, to accept the faculty 
position offered by Harvard University); Selected as a Bechtel Fellow 
(one of four worldwide) by the Bechtel Group in 1985; Elected President 
of the American Meteorological Society by the membership in 1989; 
Honored as Distinguished Alumnus by LeMoyne College in 1990; Elected 
Fellow of the AMS in 1990; Awarded the U.S. Commerce Department Gold 
Medal for exceptional service as a NOAA special appointee, while 
Director of the National Acid Precipitation Assessment Program in 1990; 
Recipient of the Cleveland Abbe Award of the AMS, recognizing unique 
contributions to the atmospheric sciences field, in 1998.
    15. Published writings: I have been author or co-author of 
approximately 20 papers in peer reviewed scientific journals and more 
that 200 other technical presentations and project reports, all in the 
fields of meteorological and environmental analysis. Except for a 
scientific book review published in 2001 (noted below) the most recent 
of my publications was in 1983, to the best of my recollection. After 
relocating several times in the past 18 years, I do not have a list of 
my publications from the 1966 to 1983 period. If the Committee requires 
this earlier information, I will attempt to reconstruct it from primary 
sources.
    Book review of ``Crossing Borders, Crossing Boundaries: the Role of 
Scientists in the U.S. Acid Rain Debate'' by Leslie R Alm. Review 
published in the Bulletin of the American Meteorological Society, Vol. 
82, pp 490-492, 2001. Because the published review contains some of my 
thoughts on the roles of scientists in the evaluation of scientific 
issues important to the public, two copies are included for the 
Committee with this document.
    I am author of a chapter in one technical book, ``Dangerous 
Properties of Industrial Materials,'' a standard industrial toxicology 
reference book published in approximately 1970 by Von Nordstrand, and 
edited by N. Irving Sax My chapter described methods to analyze the 
potential health risks of air pollutants in the vicinity of industrial 
facilities.
    14. Speeches: Attached are two copies of the text and overheads 
used with a speech on ``The Opportunities and Challenges in Developing 
Green Industries for Hong Kong, the Pearl River Delta and Beyond, as 
Illustrated by Other International Environmental Management Programs'', 
presented in a Hong Kong government-sponsored seminar in Hong Kong in 
March 2000.
    I have made many other informal presentations during the past 5 
years, but no other prepared, written speeches.
    17. Selection: Do you know why you were chosen for this nomination 
by the President? I have no specific knowledge, but see the following 
answer.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I believe 
I am qualified for this appointment because I have the experience, 
commitment to public service, and energy level necessary to serve NOAA 
and the nation. Among my relevant background and experience I would 
cite the following:
    <bullet> Extensive and continuous experience with the 
meteorological, hydrological and oceanographic fields since graduate 
school in the 1960s.
    <bullet> Extensive experience with issues that combine 
environmental science and important public issues, such as acid rain, 
coastal zone management and global change.
    <bullet> Prior experience as Director of the National Acid 
Precipitation Assessment Program (NAPAP), for which I received the 
Commerce Department Gold Medal recognizing exceptional service. The 
NAPAP assessment experience is currently relevant for the scientific 
understanding of global change issues, including evaluation of causes, 
effects, mitigation and adaptation options, and long term strategy 
comparisons.
    <bullet> Long-term leadership within the community of the American 
Meteorological Society, that addresses the meteorological, hydrological 
and oceanographic sciences and their application. My AMS experience 
includes the position of elected President of the organization.
    <bullet> Extensive experience in the general management of large 
scientific and technical organizations, in both the government and 
private sectors.
    <bullet> Long experience in dealing with the multiple stakeholders 
involved in environmental management decisions, including frequent 
experience with public hearings and congressional testimony. .
    <bullet> Prior academic experience, on the faculty at Harvard 
University.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    I have two deferred compensation agreements with my former 
employer, the IT Group, Inc., of Monroeville, Pennsylvania. These non-
qualified plans developed by the corporation in accordance with IRS 
regulations. These are referred to as the ``IT Deferred Compensation 
Plan'' and the ``IT 401K Restoration Plan'' (note: this is not a 401K 
plan). Under these plans portions of my income were not paid currently, 
but were retained by the corporation for payment at a future date. When 
the plans were initiated, I made the election to receive the deferred 
funds over a 5-year period beginning on the third anniversary of my 
last date with the corporation. The date for payment initiation is 
August 21, 2002. The company credits deferred interest to the plan 
balance each year. Both plans have an IRS-approved option of a lump sum 
payout, subject to a 15 percent penalty, and current taxation on the 
entire lump sum. On December 3, 2001, I made application for the lump 
sum payout of both plans, because the corporation is at serious risk of 
bankruptcy. I may, or may not, receive funds in response to my request, 
because of the current financial state of the company. I have no 
control over the formula for crediting the interest earned or the 
payment schedule for these funds; these are fixed according to the 
contracts signed years ago. I have disclosed the details of these 
arrangements to the Ethics Counsel at the Commerce Department.
    I have a continuing professional consulting arrangement covering 
environmental and business matters with the Washington DC based law 
firm of Swidler Berlin Shereff Friedman, LLP. The arrangement 
establishes finders' fees to be paid to me for arranging introductions 
that result in new client relationships for the law firm, in the area 
of environmental liability insurance recovery. I will terminate my 
relationship with the law firm before entering into my federal 
appointment, if confirmed. Under our agreement, one or more payments 
triggered by earlier introductions will be made to me at a future 
date(s) within approximately the next 2 years. The amount of such 
payments is established by a formula in our written agreement executed 
in May 2000; the formula is applied to the total amount of insurance 
recovery achieved in cases for which I am eligible for payment. I have 
disclosed this agreement in detail to the Commerce Department Ethics 
Counsel, and we have developed plans to assure that no conflict of 
interest will arise because of this arrangement.
    As part of my ongoing work with Swidler Berlin Shereff Friedman, 
LLP, I have a fee sharing agreement with the firm of Renova Partners 
LLC of Boston, which is assisting me in my work for the law firm. I 
will terminate this arrangement before taking up my appointed position 
if confirmed. I have disclosed this arrangement to the Commerce 
Department Ethic Counsel.
    I have a continuing professional consulting relationship with the 
Southern Appalachian Mountains Initiative (SAMI), an ad-hoc 
environmental study organization supported by several federal and state 
agencies, as well other stakeholders in eight states in the 
southeastern United States. Under our agreement I am assisting SAMI in 
arranging scientific peer reviewers for SAMI's final technical reports. 
I bill SAMI for my time charges and actual expenses. I will terminate 
this agreement before taking up my appointed position if confirmed. I 
have disclosed this agreement to the Commerce Department Ethics 
Counsel.
    I have been serving on a Committee on Air Quality Management in the 
United States, for the National Academy of Sciences-National Research 
Council. This is pro bono work. Actual expenses are reimbursed by the 
Academy, and there is no other compensation for services. I will resign 
from this Committee prior to taking up my appointment if confirmed. I 
will submit a statement to the Academy for one current expense amount, 
and there will be no other financial transactions after this one 
expense item is paid. I have disclosed this work to the Commerce 
Department Ethics Counsel.
    I serve on the Investment Committee of the American Meteorological 
Society, which is a not-for-profit scientific, professional and 
educational organization. I receive no fees or expense reimbursement 
for this pro bono work. I will resign from this committee before taking 
up my appointment if confirmed. I have disclosed this committee 
assignment to the Commerce Department Ethics Counsel.
    Except for the matters described above, I do not have any 
continuing dealings with business associates, clients or customers.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. I have a stock 
investment in one company (Nokia Corporation) that slightly exceeds the 
reporting limit of $5,000. I have disclosed this to the Commerce 
Department Ethics Counsel, and have committed to a plan to avoid a 
conflict of interest in this case.
    The only financial liability that my wife and I have is a primary 
mortgage on our residence. I am not aware of any other investments, 
obligations, liabilities or other relationships which could involve a 
potential conflict of interest in the position to which I have been 
nominated.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. Other than the arrangements 
described in my response to the previous question, I do not believe 
that I have had any other business relationship, dealing or financial 
transaction during the last 10 years, that would in any way result in a 
possible conflict of interest in the position to which I have been 
nominated.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. I have not 
engaged in any such activities during the past 10 years.
    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) A copy 
of the Ethics Agreement I have completed with Barbara S. Fredericks, 
Assistant General Counsel for Administration of the Commerce 
Department, with a copy to Commerce Secretary Evans, is attached.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any federal, state, or other law enforcement authority for violation of 
any federal; state, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. The IT Group, 
Inc, for which I was Senior Vice President from 1991 to 1999, is a 
large environmental service and infrastructure project firm, with 
revenues exceeding $1 billion per year, and operations throughout the 
United States and overseas. In the normal course of business the 
company is involved in several matters of civil litigation each year. 
None of these matters were in the area of my direct responsibility 
during my years with the firm.
    I am not aware of any civil litigation matters in which I have been 
a party at interest, except for a court approval of a negotiated 
divorce settlement of my first marriage, finalized in 1989.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. I am not aware of any other 
information, favorable or unfavorable, that the Committee should 
consider to be relevant to consideration of my nomination.

                    E. RELATIONSHIP WITH COMMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. I 
will assure that I receive effective. briefings on the legislative 
history for the provisions of federal law that drive the regulations 
and procedures that NOAA is charged to implement. I will supplement 
these briefings with my own inquiries to other interested parties where 
appropriate. I will proactively seek counsel from Senate and House 
committee members and their staff on the issues related to their 
oversight or special interests, on a continuing basis. I will ask the 
Commerce Department and NOAA legal and legislative affairs personnel to 
keep me briefed on the background of each important issue, and the 
obligations that each such issue imposes upon NOAA.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. NOAA's mission is to 
understand, describe and predict changes in the earth's environment, 
and to provide conservation and sound management of the nation's 
coastal and marine resources. NOAA's responsibilities are important to 
every citizen and resident in the United States, and to many of the 
nation's most important sectors, including public safety and health, 
commerce, transportation, environmental and ecosystem protection, 
energy system reliability, and coastal and marine zone activities, 
among others. In addition, NOAA's scientists and operational 
specialists, observation systems, laboratories, research vessels, 
aircraft and satellites, computer resources, and communications systems 
have unique responsibilities to serve the United States and the global 
community in understanding significant global change issues. Prudent 
management of our global environment must begin with the best-possible 
science, measurement systems and forecasting resources that are the 
core assets of NOAA.
    NOAA's major programs respond to its mission responsibilities. 
These programs include:
    <bullet> Advancing short-term weather forecasting with emphasis on 
continuous improvements in the warnings and advisories associated with 
severe storm events.
    <bullet> Improving seasonal and year-to-year weather and climate 
forecasting capabilities, providing better earth system understanding 
and direct benefits for the energy, agricultural, water resource 
management and transportation sectors, among others.
    <bullet> Improving climate change understanding, on the time scale 
of 10 to 100 years, critically important to the development of optimal 
approaches to the global management of climate change risks.
    <bullet> Enhancing safe navigation capabilities, to promote 
transport system safety, and to be prepared to support the next 
generation of advances in navigation technology for surface, free 
ocean, coastal zone, and airborne vessels.
    <bullet> Building sustainable fisheries, by a program of 
measurements, population analyses, and improved understanding of 
natural and man-made variability in commercially important fish 
populations--and by developing management guidelines that enhance 
sustainability.
    <bullet> Recovering protected species that are significantly 
threatened in estuaries, coastal zones and ocean environments, by 
resource management, supported with increases in aquatic and mammalian 
ecosystem understanding.
    <bullet> Sustaining healthy coastal ecosystems, by research, 
observation and resource management approaches that address the natural 
and man-made stresses on irreplaceable coastal resources.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated? 
Beginning with my entry into the graduate meteorology and oceanography 
program at MIT in 1959, I have had 42 years of continuous experience in 
several of the core elements of NOAA's mission. My career has benefited 
from diverse experiences in many settings:
    <bullet> Research scientist focusing on atmospheric, coastal and 
marine sciences,
    <bullet> University professor in a public health faculty, ``growing 
up'' with the environmental management issues emerging around the 
world,
    <bullet> Technical business entrepreneur who co-founded the first 
large scope environmental management practice extending throughout the 
nation and overseas,
    <bullet> Frequent environmental advisor to agencies of the U.S. 
Government, as well as international agencies and foreign governments,
    <bullet> Frequent testimony before Congress both as a federal 
appointee and as a non-government specialist,
    <bullet> Prior federal service as the Director of the National Acid 
Precipitation Assessment Program,
    <bullet> Decades-long involvement with the American Meteorological 
Society which counts a sizable percentage of the NOAA staff as members, 
including election as AMS President by the membership, general 
management of large, multi-location technical organizations as an 
executive of the Bechtel Group and the IT Group,
    <bullet> Substantial experience with planning, budgeting, 
operational and financial controls, human resource issues, and career 
enhancement for large groups of personnel, and
    <bullet> Substantial experience with multi-stakeholder 
communications as related to environmental planning and decisionmaking.
    2. Why do you wish to serve in the position for which you have been 
nominated? All of my environmental management experience has involved 
working at the interfaces of multiple stakeholders: government, 
industry, environmental groups, community members, and technical 
experts. Public health and the public good are at the core of this type 
of environmental management practice.
    My prior experience in a key federal position, and my long career 
experience working at the public-private interface, has confirmed my 
fundamental desire to use my training and skills for a public purpose. 
I am highly motivated to make a useful contribution working with the 
excellent scientific, operational and administrative staff at NOAA.
    3. What goals have you established for your first 2 years in this 
position, if confirmed?
    <bullet> General: working with the direction of the new 
Administrator Admiral Lautenbacher, to build on NOAA's strengths of 
personnel, technology, operational systems, and institutional 
experience to further enhance NOAA's effectiveness in assessing, 
forecasting and helping to guide the protection of the global 
environment. I believe the best method to honor NOAA's legacy of long 
accomplishment is to build on it, by embracing opportunities for change 
that enhance NOAA's service to all of its stakeholders.
    <bullet> Near term (within the first 6 months or less): to become 
fully familiar with NOAA's resources, opportunities and constraints, in 
order to be fully effective in assisting Admiral Lautenbacher and the 
entire NOAA management in communicating NOAA's vision of enhanced 
services to its many stakeholders.
    <bullet> Throughout my period of service: to help make NOAA a 
``great place to work'' for scientists, operations personnel and 
administrators, so that NOAA is able to attract its full share of ``the 
best and the brightest'' to serve its longterm mission of global 
environmental understanding, forecasting and management.
    <bullet> Continuously: to enhance NOAA's communication with all of 
its stakeholders, so that its service effectiveness is continuously 
enhanced.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    My knowledge of a number of NOAA's capabilities and programs is 
very limited, so I will proactively seek briefings from, and regular 
contact with, those NOAA associates at all levels whose work should be 
recognized, and from whom I can learn.
    5. Who are the stakeholders in the work of this agency?
    <bullet> The entire public, who are the users of NOAA information, 
forecasts, safety advisories, and environmental management guidance.
    <bullet> The taxpayers, who pay the costs for NOAA operations.
    <bullet> The Senate and the House of Representatives (in particular 
the oversight committees and other members with specific interests in 
NOAA operations), on behalf of the public and the taxpayers.
    <bullet> NOAA's supervisors in the Executive Branch, and the many 
federal agencies that collaborate with NOAA.
    <bullet> NOAA's employees, who seek rewarding careers in return for 
committed work performance.
    <bullet> The private sector organizations, non-profit 
organizations, news media, research groups, universities and school 
systems, that use and disseminate NOAA-developed information, thereby 
multiplying the effectiveness of NOAA's activities.
    <bullet> The international environmental management community 
(including governments, international organizations, non-government 
organizations, private sector organizations, and educational and 
research organizations) that collaborate with NOAA, and use NOAA-
developed information.
    <bullet> The communities that host NOAA facilities and NOAA staff.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 5.
    If confirmed, my responsibility is to assist NOAA Administrator 
Admiral Lautenbacher, and the entire NOAA management and staff, in 
serving the needs of the NOAA stakeholders. This responsibility 
includes a continuous commitment to excellence in performance, 
efficient use of taxpayer-supplied funds, openness to changes that will 
enhance NOAA's mission, and honest communication with NOAA staff and 
external stakeholders.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls?
    Proper management and accounting controls are the essential 
underpinning for all of NOAA's activities. Much of my career has 
involved executive management of large, private sector technical 
service organizations, and this experience has caused me to be 
committed to highly effective management controls as the sine qua non 
condition for organizational operation.
    (b) What experience do you have in managing a large organization?
    <bullet> Fifteen years in developing a major private-sector 
environmental service organization from startup to national and 
international scope, with direct supervisory responsibilities for up to 
a few hundred staff.
    <bullet> Four years in executive management at the Bechtel Group, 
with direct supervisory responsibilities for up to a few hundred staff.
    <bullet> Three years as Director of the National Acid Precipitation 
Assessment Program, with highly demanding stakeholders focused on a 
group of complicated public issues, and approximately 1,200 government 
employee and contractor staff working on preparation of the NAPAP 
assessment products. I was awarded the U.S. Commerce Department Gold 
Medal for exceptional performance as NAPAP Director in 1990.
    <bullet> Eight years experience as Senior Vice President of the IT 
Group, Inc., with executive management responsibility (profit and loss 
responsibility) for major elements of this $1+ billion annual revenue 
company, involving supervision of up to 2,500 staff.
    8. The government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
    The definition of measurable individual and group performance 
goals, and the scheduled reporting of progress in achieving these 
goals, is essential for the efficient management of NOAA. Defined goals 
and written evaluations of progress in achieving the goals are 
important tools of management communication that foster individual and 
group effectiveness, and that provide the basis for career advancement 
opportunities for all staff.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    In the case of failure to meet agency performance goals, Congress 
might first examine whether the goals were realistic and well 
communicated, and whether any external influences seriously impeded 
attainment of the goals. If these inquiries do not indicate specific 
problems, then Congress should examine a full range of options to 
improve performance, while assuring that essential public needs are 
being met.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I believe that it is premature to establish meaningful performance 
goals until I have a better understanding of the issues, priorities, 
opportunities and constraints facing NOAA. If confirmed, I would 
prepare written goals and performance measures within three months of 
taking up my new appointment.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I strongly believe in 
open and honest communication between supervisors and employees at all 
levels. I believe that supervisors should take the initiative to 
provide employees with as much information as appropriate about the 
context for policies, directives and specific decisions. NOAA has a 
highly educated and motivated staff, and this openness is particularly 
important for fostering the level of cooperation and initiative-taking 
that is essential for excellent group performance. Fairness and 
objectivity is important in all cases, and all staff must feel that 
their career advancement will be related to their performance rather 
than to non-relevant factors.
    I am not aware of any employee complaints being brought against me. 
I am motivated to continue my long record as a highly regarded 
supervisor and mentor with large numbers of technical and 
administrative staff for whom I have been supervisor over many years.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have had various points of contact 
with the Congress during the past 25 years. In the mid-1970s, I was 
retained as a technical specialist by a number of nationalscope 
industrial and commercial organizations, with responsibility for 
scientific analysis of various environmental legislative proposals 
being considered by the Congress. I presented my findings in 
approximately ten appearances before Senate and House subcommittees, 
and in several briefings for committee members and staff. This 
experience taught me the crucial lesson that scientific analysis of 
environmental issues can be credible only if it objective and free of 
advocacy for a predetermined position.
    During my service as NAPAP Director I was also invited to testify 
before subcommittees of both the Senate and the House approximately 10 
times, and I was frequently required to answer questions communicated 
by interested members of both houses.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Inspector General has an essential role in every 
federal agency. My responsibility is to be directly responsive to any 
requests by the Inspector General for meetings or other communications, 
to fully evaluate and act upon information brought to my attention by 
the Inspector General, and to foster a culture of high integrity 
performance by all NOAA staff.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. I will 
assure that I receive effective briefings on the legislative history 
for the provisions of federal law that drive the regulations and 
procedures that NOAA is charged to implement. I will supplement these 
briefings with my own inquiries to other interested parties where 
appropriate, and I will encourage NOAA's receipt of communication from 
all stakeholders interested in an issue. I will proactively seek 
counsel from Senate and House committee members and their staff on the 
issues related to their oversight or special interests, on a continuing 
basis. I will ask the Commerce Department and NOAA legal and 
legislative affairs personnel to keep me briefed on the background of 
each important issue, and the obligations that each such issue imposes 
upon NOAA.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. With the exception of one matter described 
below, I do not believe that I currently have the information necessary 
to provide Congress with meaningful recommendations about priority 
legislative actions affecting NOAA's mission. I would be prepared to 
present my views within 3 months of taking up my new appointment if 
confirmed.
    I consider one matter to be so compelling that it is worthy of note 
at this time. It is my personal observation that federal government 
positions are not seen as a desirable long-term career choices by many 
of ``the best and the brightest'' scientific and technical personnel, 
especially recent university graduates and other early career 
individuals. This represents a degradation of opportunity for public 
service compared to the perspective I felt as a young scientist in the 
1960s and 1970s. I would be honored to work with the Committee to 
address this question, which is critically important to assuring 
excellent environmental stewardship by the staff of NOAA and other 
federal science oriented agencies in the future.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
I am pleased to work under the direction of NOAA Administrator Admiral 
Lautenbacher, to develop and implement a system that allocates 
discretionary spending based on national priorities determined in an 
open fashion on a set of established criteria. I will fully support 
Admiral Lautenbacher in his objective to complete an internal review of 
NOAA organization and programs within three months, and developing and 
publishing implementation plans and priorities within the following 
three months.

    Senator Kerry. Thank you very, very much, Dr. Mahoney.
    I appreciate your comments, and I think every Member of the 
Committee would agree that the description of the involvements 
that you've had could not more effectively prepare you for the 
task that you're going to undertake here, so we certainly 
welcome that.
    Let me just ask some pro forma questions with respect to 
the nomination process.
    Is there any item or issue that the Committee should be 
aware of that might present you with any kind of conflict of 
interest in the performance of these duties?
    Dr. Mahoney. Senator, no, nothing at all that I would think 
of.
    Senator Kerry. And in the course of the preparation for 
this, is there any holding or asset that you've had to divest 
of in order to put yourself in a position to perform these 
responsibilities without conflict?
    Dr. Mahoney. No. I believe there's one stock holding of a 
few thousand dollars note which caused me to--because it 
exceeded $5,000--classify it into a different category in 
reporting on the financial disclosure forms, but virtually all 
of my other assets are in home, broad-gauged mutual funds and 
other investments of that sort, so I have no particular holding 
which was a problem.
    Indeed, the one holding which, I'm happy to say is slightly 
up, at $6,000 or so, as I've already reported to the Office of 
Government Ethics, I'll simply sell if that's seen as a problem 
at all.
    Senator Kerry. So it sounds like you're commending yourself 
also for your good judgment because you don't hold Enron or K-
Mart.
    [Laughter.]
    Dr. Mahoney. I can report I've never owned either.
    [Laughter.]
    Senator Kerry. Doctor, let me ask you about the 
responsibilities of your position. Have you and the 
Administrator, Admiral Lautenbacher, divided up how you're 
going to proceed, in terms of the management issues? I mean, 
can you tell the Committee what particular responsibilities at 
this point you will be assuming, versus he?
    Dr. Mahoney. Yes, I'm delighted----
    Senator Kerry. Let me also add to that the question--he 
obviously comes with a background with respect to the ocean 
component of this. You come with an atmospheric component of 
it. I think some of us are concerned about where the live 
marine resources fit in between the two. And maybe you could 
share with us a sense of how that will lay out.
    Dr. Mahoney. I'd be delighted to, and I'm delighted that 
Admiral Lautenbacher is here in the room so that--of course, 
when one speaks about what one's boss wants to do, it's 
important that we be in the same space.
    But as we were requested to have an opportunity to visit 
with one another when the Administration aimed to proceed with 
the process of nominating Admiral Lautenbacher for 
Administrator and potentially nominating me to be deputy. So 
Admiral Lautenbacher and I began discussions.
    We both took a view that, based on our management 
experience in different sectors, of course, over a long time, 
we felt that NOAA and the nation would be best served if both 
of us viewed that we had a somewhat classic number-one and 
number-two deputy role, which is that there be a good deal of 
overlap and backstopping rather than a pigeonholing into the 
wet ocean and atmosphere, for example, even though we clearly 
want to work to our strengths in those areas where they exist.
    We would acknowledge in this--and I would, certainly in 
response to your question--I am not a fishery marine biological 
expert at all, and nor is Admiral Lautenbacher in his career. 
We're delighted to have, in Dr. Bill Hogarth, a very strong 
head of the marine fishery program. And one thing we know for 
sure in our sense of management is that both Admiral 
Lautenbacher and I will pay a great deal of attention to this 
area. And Dr. Hogarth will have a great lead.
    There's one other particular aspect I would mention in my 
own background. Having had some decades of environmental 
management experience, I'm very sensitive--as I know Admiral 
Lautenbacher is, too--but my direct working experience has been 
very frequently with the public review and decision process 
about environmental matters which go to permits, public actions 
that are sometimes public granting actions, other times public 
restricting actions. So it's somewhat second-nature for me to 
be looking at circumstances where complicated issues have to 
come down to public decisions in the end. And those must always 
listen carefully to the views of the stakeholders, and then the 
decisions should be very transparent, in the sense that their 
basis should be open.
    So I'm sure I--and I know Admiral Lautenbacher, too--by our 
commonality in approach, will be very sensitive to this kind of 
play. So we will be strong observers of the management process 
for the fisheries issues. We'll work very closely with Dr. 
Hogarth, of course, in carrying that out.
    Senator Kerry. Well, let me just say to you very quickly, 
then. I want to let my colleagues have a chance to ask some 
questions. I have a couple more questions, but I appreciate 
what you've just said, and I think it probably makes the most 
sense to have that kind of deputy relationship where there is 
cross-fertilization.
    The key concern to this Committee--I mean, in the 18 years 
that I've been involved with the fisheries issues--and Senator 
Hollings, a lot longer, and Senator Stevens and Senator Inouye 
and others on this Committee--there's been a deep 
disappointment. You know, each year that we do the Magnuson or 
each year that we structure--every few years when we do it--we 
wrestle with this question of keeping the democracy of the 
councils where local input, local decisions, are able to be 
made and people are really controlling their own destiny, 
balanced against the inevitable, parochial tensions that 
prevent decisions from being made at all. And to some degree 
the predicament of our fisheries on a national basis is the 
unwillingness of people to resolve those issues and bite the 
bullet.
    A number of years ago, we empowered the Secretary--and 
obviously you, through the Secretary--to intervene in a way 
that makes the difference. It's disturbing to me that a court 
is going to settle a Council issue now. I mean, that's just not 
what we intended. It's not the way it ought to work.
    So we're very concerned that the agency really step up on 
this. And if you don't have the science, then we've got to get 
the science. And that's something we tried to augment in the 
budget last year.
    But I wonder if you'd just comment quickly on that, because 
there is a frustration, and we are going to be doing Magnuson 
again, and we need to come to grips with this issue.
    Dr. Mahoney. Thank you, Mr. Chairman, I'd be glad to.
    Let me start by wrapping in the comments that Senator Wyden 
mentioned in his opening comments and that we discussed in his 
office yesterday, which is the strong bias toward action and 
the--I think I wrap in the same comments in your case here.
    On the matter of taking action and taking on the tough 
issues, I'm very comforted by the experiences of the whole 
chain through Secretary Evans on down into NOAA here.
    Secretary Evans himself has clearly shown a great emphasis 
on good government and taking action and making decisions.
    Deputy Secretary Bodman, of course, comes into his post 
after a long career at the top level in corporate management in 
the country and is very action oriented. I know that Admiral 
Lautenbacher is, and I will assert that I am, too. And I think 
you've given clear direction, by these questions and by many 
other communications I am aware of, that you're looking for 
things to come from NOAA and ultimately from the Commerce 
Department here. So I'm sure that those comments are heard and 
will be responded to.
    Senator Kerry. Thank you very much, Doctor, I appreciate 
it.
    Let me just say to everybody we want to try, if we can, to 
expedite so we can get into the CAFE hearing.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I just have a 
couple of questions.
    First, Dr. Mahoney, thank you for being forthcoming on this 
important nomination, again.
    Speak for a minute, if you would, to those fishing 
families, say, on the Oregon coast, like in Newport. They are 
looking to deliver a buy-back program so that you get the right 
number of people at the right time, catching the right number 
of fish, so that there's a sustainable resource.
    Speak to them just for a moment of what you're going to do 
to deliver that.
    Dr. Mahoney. Well, Senator Wyden, I'm sure you can 
understand that since I am not even in position and have not 
had a chance to be rounded in the issues, I feel obliged to be 
cautious. I think it would be injudicious and wrong for me to 
simply say, ``I believe we can do the following.'' I think that 
the issue for fishing families on the Oregon coast is a very 
deep and pressing one. I think it's an example of the sort that 
we have sometimes in other cases in this country, too, and we 
have to find, as a nation, the right mix of public-private 
initiatives to care for these problems of long standing. I 
don't think it minimizes the problem for the fishing families 
there to note that similar issues relative to coal-mining 
families, to other one-industry-town families, have occurred 
across the country.
    So I believe that the public sector should--the government 
should judiciously look at the opportunities to help while 
remaining true to the principles of the kind of society and 
economy we have in the country to make a difference. And I 
think beyond that I would be injudicious to try to talk 
specifically because I don't have a rounding of the issues.
    I'd be delighted, Senator, to build on this, to work with 
you and your staff and others on the Committee and, as you 
asked, to come back more specifically on the same points as I 
feel I'm better grounded.
    Senator Wyden. Well, I think that's fair. And obviously I'm 
just looking to see that you've got a commitment and that 
you're going to follow up. And it's fine to assert that this is 
preliminary, and there is no question that it is. I want to ask 
you about one other matter.
    This question of bycatch is critical because a tremendous 
number of fish are being wasted. It's an incredible public 
disgrace at a time when we don't have all the fish that we need 
for any kind of a sustainable resource. We're wasting. We bring 
them to shore and we throw them aside.
    Your predecessors didn't follow up on this program. What 
are you prepared--again, on the basis of the fact that you 
can't make any specific commitments--to do, in a general way, 
to follow up on this issue?
    Dr. Mahoney. Senator Wyden, I'm delighted to say, first, 
this issue has been called to our attention. Your questions, 
over some period, certainly caused this to be briefed to me 
before coming up here.
    I know that I will--I am committed to respond to you.
    I know that Admiral Lautenbacher is committed to respond to 
you and I'm certain that we will take action on the issue in 
the ways that seem to be appropriate. Again, I'll draw the full 
stop on trying to commit to any specific action. But on the 
question of responsiveness, I feel it's very important that, in 
this public setting, we say we hear you on a very important 
issue and we will be responsive.
    Senator Wyden. I'll wrap up with this. If and when you're 
confirmed, and you'll have my support, can I get a call from 
you in 2 weeks to give me more specifics on both of these 
questions?
    Dr. Mahoney. I hear you. The answer is yes, sir.
    Senator Wyden. Great.
    Thank you, Mr. Chairman.
    Senator Kerry. That's always the best way to get a phone 
call returned I've ever heard of around here.
    [Laughter.]
    Senator Kerry. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much. Dr. 
Mahoney, one of your 4-year-old daughters has been waving at me 
back there.
    [Laughter.]
    Senator Dorgan. So I will support your nomination.
    [Laughter.]
    Senator Dorgan. Can you tell us their names, by the way?
    Dr. Mahoney. Caitlin and Courtney--two Cs.
    Senator Dorgan. Well, that's a surefire way to get 
confirmed is to bring two young ladies like that to our 
hearing.
    [Laughter.]
    Senator Dorgan. I am really pleased to support your 
nomination. I think you have an excellent background, and I 
look forward to working with you.
    I did want to mention one issue to you, and I'm not doing 
it in a way that's unfair to you. I know that you will not have 
known of this or studied it, but I know that Admiral 
Lautenbacher is in the room, and I believe Sam Bodman is here.
    I received a call last night from Williston, North Dakota. 
We've had a long, tortured problem between the National Weather 
Service, NOAA, and Williston, North Dakota. I'll just describe 
it in 1 minute.
    You know we put in a series of NEXRAD radars in the 
country. They didn't put very many of them up in our part of 
the country, so the one that serves northwestern North Dakota 
and northeastern Montana is in a place called Deering, North 
Dakota. That's 130 miles away from Williston.
    Well, it shoots radar in a way that it is not able to see 
storms below 12,000 feet. These low-formation, quick-moving 
winter storms are killer storms, and yet we were going to be 
left out of radar coverage for those kinds of storms with 
NEXRAD. And so the weather service at first denied it, but all 
the experts studied it and said, yes, this is an area of 
significance. So they've kept the Williston weather radar open 
for the last 4 or 5 years until they complete all these other 
studies.
    Now, I received a call last night saying that they've gone 
from 6 people to 4 people. They've shut it down from midnight 
to 6 a.m. The people they've interviewed to try to replace 
them, the weather service has said to them, ``By the way, you 
know, we might shut this down in the future, and we don't pay 
moving expenses, so we're interviewing you for a job you might 
not want to take.'' And, of course, they've not had any takers.
    I think there's been a lack of good faith here on the part 
of some people, and I'd like to work with you and with Admiral 
Lautenbacher and Sam Bodman to see if we can resolve this. I'm 
going to be calling their offices today, but I did want to 
mention this to you.
    It's not a small issue. Williston, North Dakota, and the 
people who are ranchers and others who live in that part of 
North Dakota and Montana have as much right to accurate and 
good weather forecasting and weather radar as someone in New 
York or Chicago. We have as much right to that. And it was 
represented that would be the case. But, in fact, it is not the 
case with the NEXRAD system, and we have, frankly, not had the 
kind of help that I would have liked from the National Weather 
Service and NOAA in the past several Administrations.
    So I'd like to work with you. I raise that only because 
this is the time and place to raise it. I just received a call 
again yesterday, and I was surprised again by the latest 
information.
    So thank you. Thanks for offering yourself to public 
service. Thanks for bringing your daughters to this hearing, 
and I look forward to working with you, Dr. Mahoney.
    Dr. Mahoney. Thank you, Senator, very much, and I hear you 
on the issue and will look forward to responding.
    Senator Kerry. Thanks very much, Senator Dorgan.
    Senator McCain.
    Senator McCain. Congratulations, Dr. Mahoney, to you and 
your family. We look forward to working with you. Do you 
believe that climate change is real?
    Dr. Mahoney. A simple answer, Senator, yes.
    Senator McCain. Do you believe it's a severe situation?
    Dr. Mahoney. My answer gets a little bit longer when we 
talk about ``severe,'' because that's such a comparative word 
that I think it can only be couched some ways. I believe it's 
fair to call it a serious or severe problem or concern for the 
world society.
    Senator McCain. Have you seen the latest National Academy 
of Sciences assessment? That was the strongest language that I 
have seen.
    Dr. Mahoney. Yes, I have, Senator.
    Senator McCain. Do you agree with that?
    Dr. Mahoney. Generally, yes.
    Senator McCain. Why do you suppose that there is still a 
large body of opinion in America that refuse to recognize this 
reality?
    Dr. Mahoney. My sense, Senator, runs along two lines. One, 
the findings and implications are so important and profound 
that it bears well that skeptics and those who might have other 
views be heard well--not forever, but for some time--because 
the implications of the actions that may be necessary are very 
strong, as we know.
    So I think in the--and I say this somewhat in the science-
process sense--even in view of the Academy's report, I don't 
think it's the first time ever that we might have a 
circumstance where the best scientists might find something and 
certain data might arise in the world that would cause that 
feeling to be somewhat colored in the next few years.
    And I'm not trying to duck the issue, but I'm saying, on 
the one side, just on the science issue, there's a place to 
have a bit of real caution, even when there--even, and maybe 
almost in particular, when there's a--when we might 
characterize a 95-percent agreement with some well-known 
percentage on the other side.
    The second is that I believe that it's a different matter 
to deal with what the responses and actions should be. And I 
think very much of this triad that we have of the science and 
all of its manifestations and its uncertainties--and I should 
stress I don't mean uncertainty as a surrogate to say don't 
act; it's just a fact of life that there are these 
uncertainties--and we have the related technology issues of 
what can we do differently. But then there are, in their own 
rights, fundamental questions, of course, of economic security 
and energy security, certainly for our nation as the world 
leader, but for the whole world, too, because the mitigation 
strategies may impede the development of societies everywhere 
in the world--in many cases, most often in the underdeveloped 
countries.
    Senator McCain. I hope you'll give this issue the priority 
that it deserves, which is the highest priority.
    Finally, do you believe that the oceans of the world are 
becoming polluted to an alarming degree?
    Dr. Mahoney. Senator, yes, with the caveat that we have 
some cases of improvements in some coastal zones, which is 
worthy of note, but that the broad state of the oceans is one 
that needs repair.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator McCain, for those 
important questions.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I just want to follow up 
Senator McCain's line of questioning and thank him again for 
being very bold on a number of questions and daring to tread in 
certain areas that otherwise might not think that someone in 
his party would do. And I appreciate that boldness. And what 
Senator McCain----
    Senator Kerry. Senator McCain thanks you for putting him on 
the spot.
    [Laughter.]
    Senator Nelson. Well, what he speaks is truth. And even 
though it doesn't dramatically affect his state of Arizona, it 
sure affects my state of Florida, because the rise of the 
oceans, the increase of the temperature, the increase of 
pestilence, the increase of tremendous storms called 
hurricanes, and so forth. And, you know, we'd best get about 
the process of recognizing that, in fact, we do have a problem 
and stop sticking our heads in the sand. I thank the Senator 
from Arizona for raising the issue.
    Senator Kerry. Thank you very much, Senator Nelson. And I 
thank all my colleagues.
    Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman.
    Thank you, Dr. Mahoney. Welcome to the Department of 
Commerce and particularly to NOAA. You have a tremendous 
background, educationally, with a Ph.D. in meteorology, and 
that's going to be very important to your work over there. I 
was just wondering, do you have an idea, with Admiral 
Lautenbacher, how you all are going to divide up the fisheries 
areas? I mean, this is not your area of background. It's more 
in the weather service and meteorology, which is incredibly 
important. But also in the fisheries areas, which is important, 
as well, have you all had discussions on how those areas are 
going to be divided up?
    Dr. Mahoney. Yes, sir, Senator Breaux. We had a discussion 
a little while ago about this, too, and I'll give, hopefully, a 
quick answer, knowing you've got a full morning here, but I'm 
delighted to elaborate, now and later, as you may want.
    Admiral Lautenbacher and I have had the, of course, 
discussions about the management, overall. As number-two, I can 
be very clear. Number-one is the boss, of course, and will do 
things the way that he determines in the end.
    But we have looked at what I would consider to be a fairly 
conventional leader and deputy circumstance where both of us 
should have a very broad purview, because this provides a 
certain amount of redundancy in coverage, overall.
    While we acknowledge Admiral Lautenbacher has a strong 
oceans background, obviously, and I do have an air background, 
neither of those are directly the marine biology and fisheries 
background which is of great interest to you and many on the 
Committee, of course.
    Our approach about that is, I think, a couple of key 
things. First, we take the responsibility of oversight very 
strongly. Second, we have a very strong leader in Dr. Bill 
Hogarth, who will be very much front and center on these 
issues, but with my involvement and that of Admiral 
Lautenbacher, as well. And, third, most of the fisheries issues 
certainly have to be addressed by experts, but they are 
ultimately environmental and community-management problems that 
touch the economy and the livelihood and it would call on 
science and observation for definition.
    I have decades of being imbued in the process of this kind 
of environment management, and a modest amount of fisheries 
management background like this, as well. So I'm sure we'll be 
looking at trying to help strengthen NOAA's approach to 
addressing being open and transparent about these issues and 
getting resolution and trying to move in very tough areas which 
are a combination of observation science about the state of 
health of the fisheries and ultimately have to be economic an 
public decisions that affect people in local economies.
    Senator Breaux. Well, I thank you for understanding those 
issues. I think that while you are an expert in weather and you 
know the violence of a summer thunderstorm, I would suggest 
that you really haven't seen anything violent until you've been 
through a shrimp meeting on the turtle excluder devices in 
south Louisiana. You may want to steer clear of that to the 
extent that you can. But thank you very much.
    Dr. Mahoney. Thank you, Senator.
    Senator Kerry. Senator Breaux, thank you very much.
    I think all of that said, a few years ago, I commented to 
somebody that if you ever wanted to do a perfect study on 
government regulatory process and the difficulties and the 
varied forces pulling and tugging, the fisheries are perhaps 
one of the most ideal. It is complicated.
    But what is not complicated is understanding that the 
consequence of the inaction that comes from not making some 
choices between those tensions is disastrous. And we've seen 
that.
    And we've got 60,000 acres of clam beds closed in 
Massachusetts. We've got, as you know, the Georges Banks. You 
know, we lost our striper fisheries a number of years ago. We 
brought it back by shutting it down. For almost 10 years, there 
was no fishing. Now people are going out and catching, you 
know, regulation-size stripers, and we brought it back.
    So it just isn't that complicated to understand. What's 
lacking is not the solution, it's the willpower to put it in 
place. And so we really are going to look for you to try to 
help us do that.
    And we're going to now move into a component of the 
morning's business that reflects questions of Senator McCain 
and Senator Nelson's concern, which we all share. There's been 
a lot of procrastination about how we ought to make some 
choices with respect to emissions and global gases, and a lot 
of people's patience is wearing thin on it. We're going to talk 
about that momentarily. But we really do look to you for 
leadership and guidance with respect to those issues also.
    Dr. Mahoney, you are going to be confirmed, and we're going 
to try to move this through as rapidly as possible and get you 
on the job. And we really are appreciative for your coming here 
this morning. We're appreciate for the fact that you're willing 
to serve, and we're grateful to your family for their support 
and for their willingness to also have you serve. So we thank 
you very much.
    Dr. Mahoney. Thank you, Mr. Chairman. Thank you all for 
your questions and hearing me out.
    Senator Kerry. Thank you.
    [The hearing was adjourned at 9:55 a.m.]

                            A P P E N D I X

               Prepared Statement of Senator John McCain

    Mr. Chairman, I would like to thank you and Chairman Hollings for 
holding this morning's hearing on the nomination of Dr. James Mahoney 
to be the Assistant Secretary of Commerce for Oceans and Atmosphere and 
Deputy NOAA Administrator. I appreciate your willingness to work with 
myself and others on the Committee to give consideration to this 
important nomination in such a timely manner.
    NOAA is the primary federal agency involved in activities that 
affect the everyday lives of Americans from predicting the daily 
weather forecasts to protecting our nation's vital fish stocks. By 
predicting future droughts, storm fronts, tornadoes, and hurricanes, 
NOAA also has an important role in ensuring our nation's safety and 
economic well-being. Given Dr. Mahoney's experience in running major 
organizations in the private sector and the government, I am sure that 
he will do an excellent job as the Deputy Administrator for NOAA.
    One issue of particular interest to me is NOAA's groundbreaking 
work in research in the effects of global warming on the Earth`s 
climate. Recent events, such as the discoveries in Antarctica, 
increased coral bleaching, and the National Academy of Sciences' report 
last year, underscore the importance of collecting accurate data and 
designing comprehensive models that measure changes in our climate, and 
its effects here on Earth. While I appreciate all of the hard work of 
NOAA's scientists involved in this effort, I recognize that a 
significant amount of research remains before we can fully understand 
the complex and dynamic relationships between the atmosphere, the 
oceans, land, and mankind. I look forward to working with you, Dr. 
Mahoney, to ensure that the U.S. research contributions to this global 
problem are helpful and adequate.
    Again, thank you , Mr. Chairman, for holding this hearing and I 
look forward to quick action on this nomination.
                                 ______
                                 
        WRITTEN RESPONSES BY DR. JAMES R. MAHONEY TO QUESTIONS 
                        FROM SENATOR JOHN MCCAIN

    Question 1. It is my understanding that you have extensive 
experience in the meteorological, hydrological, and oceanographic 
areas. As you may be aware, I have introduced legislation in the area 
of climate change and continue to work on legislation that would 
establish a national ``cap and trade'' program. One of the issues that 
we are trying to address is at what atmospheric level of carbon dioxide 
should we be targeting.
    Based upon your experience, do you have any thoughts on what that 
level should be to alleviate these climate change concerns?
    Answer: Global average atmospheric CO<INF>2</INF> concentrations 
have risen approximately 25 percent in the past 100 years, or 
approximately 2.5 percent per decade. Climate science has not 
established any specific ``safe'' levels for CO<INF>2</INF> 
concentrations, which appear to be higher now than at any time in the 
past 400,000 years. CO<INF>2</INF> concentrations are projected to 
continue increasing throughout the next century, absent more stringent 
levels of global CO<INF>2</INF> emission controls.
    Attempts to establish a future target level of CO<INF>2</INF> 
concentrations will involve substantial uncertainty and debate. Three 
categories of issues need to be addressed:
    1. Scientific Questions: We need better knowledge about ``purely 
scientific'' issues such as the relationship between CO<INF>2</INF> 
concentrations and several global and regional climate parameters 
(e.g., temperature and precipitation patterns, severe weather frequency 
and intensity, etc.) as related to global changes in CO<INF>2</INF> 
concentrations.
    2. Value and Goal Questions: How should a target level be defined? 
For example, should the target level be one that results in (a) long-
term stable climate conditions; (b) more moderate expected climate 
changes--facilitating adaptation or (c) other outcomes?
    3. ``Integrated Assessment'' Questions: Climate questions are 
inevitably related to economic and energy security questions that must 
be addressed by all nations. As climate science continues to improve, 
the ``purely scientific'' evaluation of target levels will necessarily 
be linked to considerations of economic and energy outcomes for all 
nations.
    I believe that informed national and global discussions about all 
three of these categories of questions should be an integral part of 
the debates about target levels for CO<INF>2</INF> and other greenhouse 
gases.
    (b) Do you believe that the current computer modeling program by 
the government is sufficient to support decisions on this area?
    Answer: I believe the current U.S. climate modeling program is 
good, but is not sufficient to support the full range of policy 
analyses and decisions on climate change issues that must be addressed 
now and in future years. Given the importance of U.S. leadership in 
evaluating climate change issues, our nation should maintain a best 
state-of-the-art capability in climate modeling. Our current modeling 
program is not yet at this level. In particular, we need abundant 
computational capability to develop, test and operate the continuously 
improving climate models, and to broadly apply these models to global 
and regional scale climate studies. Moreover, the U.S. needs adequate 
high-end computing capacity to support the large group of researchers 
and policy analysts who seek to apply the best climate models to a wide 
range of highly important assessment scenarios.
    I agree with the principal findings of the National Academy of 
Sciences which has issued two recent analyses of U.S. climate modeling 
capability: The Capacity of U.S. Climate Modeling to Support Climate 
Change Assessment Activities (1998); and Improving the Effectiveness of 
U.S. Climate Modeling (2001). These Academy reports have identified the 
following priorities for improving climate modeling capabilities in the 
U.S.:
    <bullet> Robust support for the strong U.S. basic climate research 
enterprise, combined with a high level of resources for climate model 
``production capability'' needed for routine and specialized climate 
projections. Exploratory research, frequently conducted by single 
investigators or small groups, is a key source of much breakthrough 
knowledge about climate and earth systems. Both the basic researchers 
and the ``production modelers'' need a long-term resource commitment 
for the best state-of-the-art climate modeling capability.
    <bullet> A robust and flexible capability to produce high-end 
climate model simulations and projections for many different 
applications communities (e.g., economists, energy traders, industrial 
planners, etc.) that are increasingly becoming involved with climate 
analysis.
    Question 2.  Scientists recently announced that temperatures on the 
Antarctic continent have fallen steadily for more than two decades. 
They seem to be at a loss as to how to explain this. They further noted 
that the research does not change the fact that the planet has warmed 
up on the whole. The research simply points out that the Antarctic is 
not responding as expected. Do you have any thoughts on these findings?
    Answer: Global average temperatures have increased at a rate 
approximately 0.6<greek-d>C per century since 1900. In the past 25 
years the global average temperature has risen at a rate approximately 
3 times faster than the century-scale trend. However, temperature 
records from surface observing stations in Antarctica do not reflect 
this increasing temperature trend. This difference may be partly due to 
the scarcity of surface observing station data for Antarctica, 
especially since 1992 when the number of observing stations dropped 
significantly in Antarctica. Depending on the data sets and analysis 
methods used to calculate average temperatures, the 1976-2001 trend in 
annual average temperature in Antarctica is approximately zero (i.e., 
no net trend) by one analysis method, and a cooling by approximately 
0.4<greek-d>C per decade using another method. A significant short-term 
cooling is suggested by 1992 and 1993 data, but this may be related to 
the reduction in the number of observing stations at this time.
    The Antarctic continent is approximately 50 percent larger than the 
land mass of the United States, but there have never been more than 30 
surface observing stations operating on the continent. The majority of 
these stations are located along coastal areas. By comparison, the 
United States has an observing network of thousands of stations 
together with excellent satellite coverage. The potential uncertainties 
related to the small number of observing stations can be illustrated by 
a comparison of winter (June-August) temperature trends on opposing 
sides of the Antarctic continent. From 1976-2001, eastern winter 
temperatures decreased (-0.5<greek-d>C per decade), while western 
temperatures increased (+0.3<greek-d>C per decade) during the same 
period.
    Several other considerations also suggest that temperature trends 
in Antarctica may not be correlated with global average temperature 
trends. The general atmospheric circulation in the region of the 
Antarctic continent is relatively isolated from the rest of the global 
atmosphere because of the strength of the Circumpolar Vortex (the upper 
air wind pattern) throughout much of the year. Another possible 
illustration of the relative isolation of Antarctica is suggested by 
paleoclimate data developed from ice core analyses for Greenland and 
Antarctica. Significant warning occurred in Greenland approximately 
36,000 to 45,000 years ago and this warming lagged behind Antarctic 
changes by approximately 1,000 years. I also note that the 
Intergovernmental Panel on Climate Change (IPCC) has suggested that 
sluggish ocean heat transport circulation may be particularly important 
in understanding temperature change at polar latitudes.
    Question 3. You have mentioned in pre-hearing questions that one of 
your goals is to work with the NOAA Administrator to build upon NOAA's 
strengths of personnel, technology, operational systems, and 
institutional experience. In recent testimony before the Commerce 
Committee, Dr. John Marburger, the Director of the Office of Science 
and Technology Policy, highlighted the need for more diversity at all 
ranks of the science and engineering workforce. Do you feel that this 
need exists at NOAA and if so, what are your objectives in the 
personnel area?
    Answer: I believe that enhanced diversity is essential for 
developing and maintaining a talented scientific and engineering 
workforce in our society. Moreover, encouragement of technical careers 
for currently underrepresented sectors of U.S. society constitutes one 
of the most effective investments in the human and economic capital of 
our nation. I am gratified that during my term as President of the 
American Meteorological Society, the AMS greatly expanded its 
recruitment and scholarship support for minority students interested in 
the atmospheric, oceanographic and hydrological sciences.
    The federal government should be a clear leader in fostering 
diversity among its technical personnel and NOAA, with its high 
percentage of advanced technical personnel, should be at the forefront 
of the federal government activities. I am pleased to note that NOAA 
and the Department of Commerce will be expanding their partnerships 
with Minority Serving Institutions (MSIs). NOAA's current (FY2002) 
budget includes $15 million to fulfill the mandates of Presidential 
Executive Orders for Historically Black Colleges and Universities, 
Hispanic Serving Institutions and Tribal Colleges and Universities. 
NOAA designated four Cooperative Science Centers in October 2000 at 
institutions with established degree programs in Atmospheric, Oceanic 
and Environmental sciences and Remote Sensing.
    I believe that NOAA has a generally good track record for fostering 
a diverse and competent workforce, but further improvement must always 
be our goal. NOAA management at all levels from the top down must be 
proactive in two broad categories: (1) sustaining a culture that 
insists on diversity and merit-based opportunity for all, as a high 
priority value, and (2) encouragement of specific initiatives that can 
improve diversity in all categories of the NOAA workforce. If 
confirmed, I shall fully support Admiral Lautenbacher and the entire 
NOAA management team in our proactive commitment to promoting diversity 
throughout the agency.
    Question 4. What are your views on the current process used by the 
government to determine the research priorities for climate change 
research? Do you feel that changes are necessary to strengthen the role 
of the U.S. Global Climate Change Research Program?
    Answer: I believe the U.S. Global Change Research Program (USGCRP) 
has generally been well managed as a research enterprise, with the 
benefit of scientific program planning that has involved many of our 
nation's leading researchers. However, I believe that the fundamental 
(and increasingly important) assessment mission of the USGCRP has not 
received sufficient attention and priority. In a similar vein, the 
National Academy of Sciences has also faulted the program for its 
inadequate ability to focus resources on priority areas.
    I advocate the use of a well-defined and broadly communicated 
assessment plan as an essential tool for future program planning for 
climate change analyses. My views about the importance of a high 
quality assessment plan were developed as ``lessons learned'' while I 
served as Director of the National Acid Precipitation Assessment 
Program (NAPAP) from 1988 to 1991.
    In my view, a comprehensive assessment plan is much broader than a 
research program plan. A research plan generally focuses on the study 
of phenomena (such as climate change measurements, hypotheses and 
models), with a goal of improved understanding of scientifically based 
cause-and-effects mechanisms. An assessment plan focuses on the 
outcomes of strategies, and should include specific consideration of 
economic and energy security issues, as well as other policy outcomes 
of an array of strategies being studied. A comprehensive assessment 
plan will beneficially influence the selection of scientific priorities 
in global change studies, by focusing research on the key outcomes that 
need to be understood. I also support continued exploratory research 
(i.e., not focused on specific outcomes) as an essential component of 
the USGCRP. Continued scientific inquiry into a wide range of global 
climate issues should continue to receive long term support.
    Question 5. What are your thoughts on the National Academy of 
Science's recommendation for a National Climate Service who would 
coordinate a global weather observing system?
    Answer: The National Academy has recommended improved and more 
comprehensive climate services, but has not specifically recommended a 
National Climate Service. The Academy recommendations included: well 
coordinated use of the nation's array of weather and climate 
observation systems; improved capabilities for research, technology 
infusion, modeling and prediction; and regional interdisciplinary 
approaches to climate services.
    I believe that a high degree of coordination of federal, state and 
local government resources, combined with private and academic sector 
capabilities, will be needed to provide climate services for the 
nation. I am pleased to note that NOAA recently linked its NWS, NESDIS, 
and OAR units in a Climate Observations and Services Program to provide 
more integrated climate services. This is one key building block in the 
development of more coordinated national climate services. I look 
forward to working with my NOAA colleagues in the development of other 
federal, state, local, private and international partnerships to 
enhance this collaboration. The goals for our comprehensive climate 
partnership should include: improving observational accuracy, 
consistency and overall coverage based on the resources of all the 
partners; assuring long-term stability in climate observing systems, to 
facilitate the analysis of long-term trends; and enhancing efficiency 
in delivering climate services to all interested users. I believe that 
integrating and broadly improving all of our nation's climate service 
resources is an important mission for NOAA and, if confirmed, I will 
work with Admiral Lautenbacher and the NOAA management team to fully 
address this mission.
    Question 6. One major program under NOAA's responsibility is the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS). This program is funded through both the Department of 
Commerce and Department of Defense. Based upon your management 
experience with large scientific and technical organizations, do you 
have any thoughts on how to improve the workings of this program?
    Answer: This unique program was established by a Presidential 
Decision Directive and implemented by a tri-agency (DOC/NOAA, DOD, 
NASA) memorandum of agreement that established clearly defined 
requirements, agency roles, and coordinated management structures. 
Based on the reviews I have undertaken to date, I believe that the 
NPOESS program is currently on track to achieve the significant savings 
projected when the program was initiated. In addition to substantial 
cost savings, I also believe that NPOESS is providing major benefits in 
the cross-fertilization of technical and management experiences among 
the partner agencies.
    My management experience suggest that every long-term program 
operating with joint agency sponsorship needs at least three conditions 
to achieve its goals and to avoid the inefficiency that could result if 
inadequate project control or communication were to develop:
    <bullet> Continuous commitment and support from the senior 
management of each of the sponsoring agencies.
    <bullet> Clearly understood program management lines of authority, 
reinforced by frequent program reviews.
    <bullet> A real sense of partnership, and commitment to achieving 
common goals, throughout the program management and contractor 
personnel.
    I believe these three elements are currently in place for the 
NPOESS program. The continued attention to NPOESS at the senior 
management level in each sponsoring agency will help ensure the program 
continues to maintain its focus as it matures, to assure that NPOESS 
continues to meet its stringent cost, schedule and performance 
requirements.
    While NPOESS has benefited from its unique access to the best 
resources of its sponsoring agencies, I believe the issue of multi-year 
budget coordination between the executive branch and Congress will need 
continued attention. The Office of Management and Budget ensures that 
the DOC and DOD budgets are consistent when submitted by the President 
to Congress. However, Congressional review of the NPOESS program is 
divided among several authorization and appropriation subcommittees. I 
believe that NOAA/DOC, DOD and NASA must remain proactive in assuring 
good communication with the various congressional authorization and 
appropriation subcommittees with responsibilities to oversee the NPOESS 
program. If confirmed, I look forward to working with Admiral 
Lautenbacher and the NOAA management team to assure that NPOESS is an 
excellent example of interagency collaboration, as well as executive 
and legislative collaboration.
    Question 7. Over the past few years, there has been some 
controversy about the role of the National Weather Service as it 
relates to commercial providers of weather forecasting information. 
Could you please explain your thoughts on what Weather Service services 
should be provided by the National Weather Service, and which should be 
provided by private forecasters?
    I note that NOAA has recently asked the National Academy of 
Sciences to review this question, i.e., the roles of government, the 
private sector and academia in providing weather and climate 
information to the nation. Considering the importance of weather and 
climate information to our country, and considering the partnership 
that already exists between NOAA and the private sector, I believe any 
suggested changes in roles should be examined carefully in a forum open 
to the many stakeholders affected.
    I believe that NOAA and private sector interests have made 
substantial progress in resolving many public/private responsibility 
issues during the past 10 years. The following overview comments 
reflect my views on the continued evolution the public/private 
partnerships in weather and climate services.
    <bullet> NOAA has a fundamental responsibility for the protection 
of human life and property, and should retain its role as the source of 
all severe weather and flood warnings, to assure consistency and to 
avoid confusion during alert conditions.
    <bullet> As a public agency, NOAA must always be open to 
consideration of privatization of any functions that do not impair its 
ability to meet its critical public missions.
    <bullet> Proposals for privatization of NOAA functions must be 
evaluated with a particular emphasis on assuring consistent and 
reliable long-term performance of such functions.
    <bullet> NOAA should continue to provide any of the data, 
information and analysis products it amasses at public expense to all 
interested users, on a rapid-dissemination basis, at the marginal cost 
of the dissemination alone.
    <bullet> NOAA should continue a robust program of weather and 
climate forecasting services. Forecasting and verification activities 
provide essential feedback needed for the continuous upgrading of 
observing, data assimilation and computer modeling capabilities.
    <bullet> NOAA already has a very well developed array of 
partnership activities, with both private sector and academic 
institutions. These should be continued, and should be considered as 
possible focuses for improved partnerships in the future.
    If confirmed, I will look forward to working with the Committee to 
examine the results of the National Academy study when it is completed, 
and to consider any proposed changes to the existing partnership 
arrangements.
    Question 8.  Because of the long development time needed for major 
programs, new technology is frequently not included in programs as they 
are brought on-line. For example, the Geostationary Operational 
Environmental Satellites (GOES) reportedly operate using 386 and 486 
processors. What changes would you suggest to ensure that new 
technology is incorporated into major programs, while also ensuring 
that the programs remain interoperable with older technology?
    Answer: As you state in the question, this problem has two 
aspects--the need to keep up with technology improvements, and the need 
to continue operating installed systems and serving users who choose 
not to upgrade. This challenging problem is exacerbated by the long 
development and deployment times for complex systems such as satellite 
observing platforms and nationally deployed radar systems. Moreover, 
the measurement and data communication protocols from these long-life 
systems must be suitable for processing by multiple users, further 
complicating the problem. The issue of technology upgrades combined 
with backward compatibility is common to many long-term systems 
operated by government units (DOD in particular) and throughout the 
private sector. I believe that NOAA has made significant progress with 
technology upgrade issues in many cases, but needs to use its past 
experience to make further improvements. I suggest the following 
guidelines for addressing this long-term issue:
    <bullet> The culture of anticipating technology upgrades, combined 
with backward compatibility, should be established as a common basis 
for system development, design and implementation. This culture should 
have a particular focus on the opportunities for improved information 
processing technologies, because the rate of improvement in information 
technologies continues to be very steep.
    <bullet> NOAA should specifically incorporate product improvement 
planning as a line element of all long-term system development and 
design activity. This planning should include a ``lessons learned'' 
perspective developed from experience with current systems. DOD uses a 
Pre-Planned Product Improvement (P3I) approach that may provide a 
useful model for NOAA.
    <bullet> NOAA should continue to buildupon its several ongoing 
programs that systematically insert new technology into existing 
systems. For example, I understand that NOAA has budgeted approximately 
$50 million annually to update the ground systems supporting NOAA 
satellites to ensure that data processing, transmission and archiving 
capabilities maintain pace with technology. Also I support the planned 
product improvement programs that NOAA has already initiated for 
several systems, including the Advanced Weather Interactive Processing 
System, Next Generation Weather Radar, and the Automated Surface 
Observing System.
    Question 9. It has been reported that NOAA currently receives more 
data from its satellites than it can process and incorporate into its 
weather and climate models. What recommendations would you make for 
upgrading NOAA's capability to handle the data it receives?
    Answer: In addition to its use of current research and operational 
satellite data to support weather and climate models, NOAA must prepare 
for the ongoing, substantial increase in satellite data expected 
throughout the next 10 years. NOAA must ensure that the communication 
infrastructure is in place to sustain the flow of data from satellites 
to the operational forecasting components of the National Weather 
Service. NOAA must also continue to increase the computational power 
required for the assimilation of this data into the operational climate 
and weather models. Furthermore, NOAA must increase its efforts in the 
research, development and design of improved data assimilation systems 
that can extract the most useful satellite data needed to support the 
ongoing advances in climate and weather forecast models.
    I understand that NASA and NOAA have recently joined forces to form 
a ``Joint Center for Satellite Data Assimilation'' for several 
purposes: (1) to accelerate the use of research and operational 
satellite data in weather and climate forecast models; (2) to assess 
the means for extracting the most information from satellite data for 
use in the forecast models; and (3) to show the extent to which these 
data can be used to attain NOAA's 5-year forecast improvement goals for 
hurricanes, precipitation forecasts and general weather forecasts. The 
Joint Center is expected to be a principal resource for continuing 
attention to the data assimilation issues, to take advantage of the 
ever-increasing quantity of data available to support weather and 
climate models.
    The pace of improvement in observing technology, communications 
capability, and information processing capacity assures that the issue 
of ``How do we best use all of the information that we collect?'' will 
be with NOAA and other government technical agencies over the long 
term. I view the issue as a special application of Moore's Law that 
projects a doubling of information processing capability every 18 
months. If confirmed, I will work with Admiral Lautenbacher in focusing 
NOAA's attention of the long-term opportunity and challenge afforded by 
the continuing improvements in data collection and processing 
technology.
    Question 10. The second item of the President's Management Agenda 
calls for giving the private sector more opportunities to compete for 
the right to perform certain tasks traditionally performed by 
government employees. What opportunities do you see in NOAA's mission 
for greater private sector competition?
    Answer: I believe that NOAA has a long-term track record of 
providing significant outsourcing opportunities to the private sector. 
As a premier scientific agency in the nation, NOAA should continue to 
build on its partnerships with the private and academic sectors to 
effectively achieve its mission. I understand that in recent years NOAA 
has pursued outsourcing and public/private partnerships in ship and 
electronic equipment maintenance, surface weather observations at 
airports throughout the United States, information technology network 
support, software development and automated data processing, and the 
design and construction of satellites and remote sensing instruments. I 
believe these examples should be used as building blocks, and that NOAA 
should work to achieve annual increases in the scope and quantity of 
its outsourcing and partnership activities.
    Question 11. In your answers to the pre-hearing questions, you 
stated that ``federal government positions are not seen as desirable 
long-term career choices by many of ``the best and brightest'' 
scientific and technical personnel''. How does this lack of interest in 
federal employment hurt NOAA's ability to achieve its mission, and what 
steps do you propose should be taken to correct this problem?
    Answer: I believe that several federal science-based agencies 
currently have an unfavorable demographic profile in their technical 
work force, with a low percentage of entry level and early career level 
technical specialists. I believe this profile has emerged because 
federal scientific employment is not seen as a priority choice for many 
of our best technical graduates, and because many of the best qualified 
early and mid-career technical specialists in government are 
successfully recruited to private and academic positions. I am certain 
that favorable compensation opportunities in the private sector are a 
factor in the decisions of many promising career scientists to leave 
federal government service. Moreover, I believe that the opportunity 
for more rapid increases in responsibility and recognition also 
influence many government scientists to consider academic and private 
sector opportunities. For highly qualified scientists, the first 10 
years of experience after graduation are often the most productive for 
new ideas; I believe that scientists in federal service should perceive 
opportunities for rapid increases in responsibilities when merited, 
during this critical 10 year period.
    The deficiency in the percentage of early career scientists in 
federal service restricts government's access to current scientific and 
technological thinking from the recently educated, and suggests a 
possibly serious shortage of well-qualified mid-career specialists in 
the next few years, when a sizable percentage of current technical 
staff will be eligible for retirement. I believe that NOAA is better 
situated than the average agency on this issue, because NOAA has the 
benefit of several excellent laboratories, key scientists, and well-
regarded R&D programs. Even so, NOAA must be alert to recruit and 
retain an abundant share of the younger generation of scientific and 
technological personnel that it needs to fulfill its missions.
    I believe NOAA should further enhance its already-favorable working 
environment so as to encourage its technical employees to remain in 
public service. NOAA should continuously strive to foster an open and 
challenging work environment that enables our scientific and technical 
employees, as well as our other employees, to reach their full 
potential. I understand that NOAA is actively pursuing this type of 
environment through such initiatives as workforce development and 
continuous learning, as well as family friendly initiatives such as 
telecommuting, and the use of available personnel management 
flexibility such as retention allowances, and alternative personnel 
systems. I look forward to joining in these important efforts, and 
collaborating with the many highly satisfied NOAA employees to 
facilitate the marketing of the NOAA brand in the colleges and 
universities that have programs in the scientific and technical 
disciplines needed for NOAA's mission.



</pre></body></html>
